APPENDIX TO THE PETITION FOR A
WRIT OF CERTIORARI
TABLE OF CONTENTS
APPENDIX A
Judgment Entry of the U.S. Court of Appeals for the
Sixth Circuit...............................................................2a

2a
Appendix A
United States v. Blough, 832 Fed. Appx. 961
United States Court of Appeals for the Sixth Circuit
October 26, 2020, Filed
20a0605n.06; No. 19-3170
Reporter
832 Fed. Appx. 961 * | 2020 U.S. App. LEXIS 33904
** | 2020 FED App. 0605N (6th Cir.) | 2020 WL
6268659
UNITED STATES OF AMERICA, Plaintiff-Appellee,
v. PHILLIP BLOUGH, Defendant-Appellant.
Notice:
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION. SIXTH CIRCUIT RULE 28 LIMITS
CITATION TO SPECIFIC SITUATIONS. PLEASE
SEE RULE 28 BEFORE CITING IN A
PROCEEDING IN A COURT IN THE SIXTH
CIRCUIT. IF CITED, A COPY MUST BE SERVED
ON OTHER PARTIES AND THE COURT. THIS
NOTICE IS TO BE PROMINENTLY DISPLAYED IF
THIS DECISION IS REPRODUCED.

Counsel: For United States of America, Plaintiff Appellee: Laura McMullen Ford, Assistant U.S.

3a
Attorney, Office of the U.S. Attorney, Cleveland, OH.
For Phillip Blough, Defendant - Appellant: Rhys
Brendan Cartwright-Jones, Law Offices Ohio,
Youngstown, OH.
Phillip Blough, Defendant - Appellant, Pro se,
Cresson, PA.
Judges: BEFORE: COLE, Chief Judge;
BATCHELDER and STRANCH, Circuit Judges.
Opinion by: ALICE M. BATCHELDER
Opinion
ALICE M. BATCHELDER, Circuit Judge. A
jury convicted Phillip Blough on several counts
related to possessing and distributing cocaine as well
as possession of a firearm in furtherance of a drugtrafficking crime. The only count on appeal is
Blough's firearm conviction. Blough challenges the
district court's jury instruction and whether there
was sufficient evidence for the firearm conviction.
For the following reasons, we AFFIRM the judgment
of the district court.

I.
With support from the Federal Bureau of
Investigation ("FBI"), the MEDWAY Drug
Enforcement Agency, a local drug task force in

4a
Wayne County, Ohio, first discovered Blough's drug
involvement in the fall of 2017 as part of a larger
drug-trafficking investigation that ultimately led to
an 80-count federal indictment against thirteen
people, including Blough. Law enforcement searched
Blough's residence on November 8, 2017, discovering
cocaine, drug-trafficking paraphernalia, and
numerous loaded firearms. Specifically, they
discovered a loaded .38 caliber Charter Arms
revolver underneath Blough's mattress, a loaded .40
caliber CZ pistol in Blough's bedroom closet, a loaded
12-gauge Benelli shotgun propped against a wall
outside Blough's bedroom, and a loaded ninemillimeter Smith and Wesson M&P (Military and
Police) pistol in a dresser drawer. In the drawer
above the drawer containing the nine-millimeter
pistol, law enforcement found two bags of cocaine,
collectively weighing 20.27 grams. They also
discovered in the upper corner of Blough's bedroom a
video-surveillance camera. Blough's father testified
that Blough used the firearms to shoot groundhogs,
which were a nuisance on his family's rural property.
But Officer Brian Banbury, a wildlife lawenforcement investigator with the Ohio Department
of Natural Resources, testified that Blough's
handguns were designed for close-quarter combat,
not for hunting, and that in his two decades' worth of
experience, he had "never found anyone hunting
with any of these three [types of handguns] in the
field."
Law enforcement arrested Blough and a
federal grand jury indicted him on one count of

5a
conspiracy to possess with the intent to distribute
and to distribute cocaine, in violation of 21 U.S.C. §§
841(a)(1) and (b), 846; three counts of using a
telephone to facilitate the commission of a felony
controlled-substance offense, in violation of 21
U.S.C. § 843(b); one count of possession with intent
to distribute cocaine, in violation of 21 U.S.C. §§
841(a)(1) and (b)(1)(C); and one count of possession
of a firearm in furtherance of a drug-trafficking
crime, in violation of 18 U.S.C. § 924(c)(1)(A).
For the firearm count, the district court
instructed the jury that the term "in furtherance of"
means that "the firearm was possessed to advance or
promote the crime(s) charged." In accordance with
Sixth Circuit Pattern Jury Instruction 12.03(2)(D),
the district court continued: "you may consider these
factors: (1) whether the firearm was strategically
located so that it was quickly and easily available for
use; (2) whether the firearm was loaded; (3) the type
of weapon; (4) whether possession of the firearm was
legal; (5) the type of drug trafficking crime; and (6)
the time and circumstances under which the firearm
was found." Then, though not expressly provided for
by Sixth Circuit Pattern Jury Instruction 12.03(2)
(D), the district court added that the jury "may also
consider whether the defendant possessed a firearm
for protection against robbery in the context of an
ongoing narcotics distribution operation." That final
instruction was the only one on which the
government and Blough disagreed; Blough objected
before the instruction was read to the jury. He
argues again on appeal that the jury instruction was

6a
erroneous.
The jury returned a guilty verdict on all six
counts. The district court sentenced Blough to 76
months in prison. Blough now appeals only his
firearm conviction. Specifically, Blough challenges (1)
whether there was sufficient evidence for his
conviction on the firearm offense and (2) whether the
district court erred by instructing the jury that it
could consider whether Blough possessed the firearm
"for protection against robbery in the context of an
ongoing narcotics distribution operation."

II.
"We review a challenge to the sufficiency of
the evidence supporting a criminal conviction de
novo." United States v. Robinson, 813 F.3d 251, 255
(6th Cir. 2016). "The relevant inquiry is whether,
'viewing the evidence in the light most favorable to
the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a
reasonable doubt.'" United States v. Fisher, 648 F.3d
442, 450 (6th Cir. 2011) (quoting Jackson v. Virginia,
443 U.S. 307, 319, 99 S. Ct. 2781, 61 L. Ed. 2d 560
(1979)). Consequently, "a sufficiency of the evidence
challenge places a 'very heavy burden' on the
defendants-appellants." Robinson, 813 F.3d at 255
(citation omitted). "[W]e do not reweigh the evidence,
re-evaluate the credibility of witnesses, or substitute
our judgment for that of the jury." Brown v. Konteh,
567 F.3d 191, 205 (6th Cir. 2009).

7a

In order to convict Blough of possession of a
firearm in furtherance of a drug-trafficking crime,
the government needed to prove beyond a reasonable
doubt that (1) Blough committed the crimes charged
(i.e., conspiracy to possess with intent to distribute
and/or possession with the intent to distribute), (2)
Blough knowingly possessed a firearm, and (3) the
possession of the firearm was in furtherance of the
crimes charged. The parties dispute only the final
element, i.e., whether the firearms Blough possessed
in his bedroom were "in furtherance of" his drugtrafficking crimes.
"In the context of § 924(c), the term 'in
furtherance of' means that 'the weapon must
promote or facilitate the crime.'" United States v.
Kelsor, 665 F.3d 684, 692 (6th Cir. 2011) (quoting
United States v. Mackey, 265 F.3d 457, 461 (6th Cir.
2001)). So, "whether a defendant possesses a firearm
'in furtherance of' a crime depends on the
defendant's intent in possessing the gun." United
States v. Maya, 966 F.3d 493, 500 (6th Cir. 2020). "If,
for example, a drug dealer owns a gun to protect the
drugs, the proceeds of drug sales, or the dealer
himself, that possession-for-protection purpose will
facilitate the crime." Id. (quotation marks and
citation omitted). But "possession of a firearm on the
same premises as a drug transaction would not,
without a showing of a connection between the two,
sustain a § 924(c) conviction." Mackey, 265 F.3d at
462.

8a
At trial, the government presented evidence
that Blough used the loaded firearms for protection
from robbery in the context of his drug trafficking.
First, the firearms were found in close proximity to
the drugs and easily accessible; Blough's ninemillimeter pistol was stored in the same dresser that
contained Blough's bags of cocaine. Second, the
government introduced into evidence that Blough
commented, during the search of his residence, that
he feared being robbed and that the people he was
dealing with were dangerous. Third, the government
presented testimony from Officer Brian Banbury, a
wildlife law-enforcement investigator, to rebut
Blough's father's claim that the firearms were used
to combat a groundhog nuisance. Banbury
explainedthat Blough's firearms, specifically the two
pistols and one revolver that were seized, were not
the type of firearms typically used for hunting, but
instead were designed for close-quarter combat.
Similarly, the government disputed that the videosurveillance camera installed in Blough's bedroom
was primarily intended to keep an eye on his dog.
The government introduced police testimony that
"[n]ormally the drugs are hidden in a home," and
such "surveillance systems are very common with
people that sell drugs" in order "to watch over [the
drugs]." In light of this evidence, the jury found that
the government proved beyond a reasonable doubt
that the firearms were used "in furtherance of"
Blough's drug-trafficking crimes.
Blough concedes that he was involved in drug
trafficking, but he claims that the firearms in his

9a
possession were unrelated to his criminal activity.
Blough notes that he was legally permitted to own
the firearms and that he used them for legal
purposes, such as target practice and hunting.
According to Blough, he stored the firearms in his
bedroom because his father did not allow him to
store them anywhere else. And he emphasizes that
the government never presented evidence of his
possessing a firearm (1) when meeting his drug
dealer, (2) on his person at any point during the
government's surveillance, (3) or in his vehicle. So,
Blough concludes, the government's only remaining
possibility to tie his drug activity to the firearms is
to claim that they were used for protection. But
Blough argues that the government has failed to
show a "connection" or "nexus" between his firearms
and his drug activity, so the government's protection
argument is just "speculation."
While it is true that evidence of Blough's using
a firearm in a drug transaction or having it on his
person at the time of the transactions may have been
sufficient for the government to convict Blough, that
type of evidence is not necessary for a § 924(c)
conviction. A defendant can be convicted under §
924(c) even if he did not use the firearm directly in
the drug transaction. For example, where, as here,
the defendant possesses the type of firearms often
used by drug dealers and keeps those firearms easily
accessible, a reasonable juror could find that the
firearms promoted or facilitated the defendant's
drug-trafficking activity by offering the defendant
enough protection (or the semblance of protection) to

10a
enter into and continue the often-dangerous,
criminal activity. See, e.g., Maya, 966 F.3d at 500
("If, for example, a drug dealer owns a gun to protect
the drugs, the proceeds of drug sales, or the dealer
himself, that possession-for-protection purpose will
facilitate the crime." (internal quotation marks and
citation omitted)); Kelsor, 665 F.3d at 692-93 (noting
a reasonable juror could find a connection between
the firearms and underlying drug offenses because
the firearms were in the defendant's bedroom with
the drugs, "were strategically located so as to be
quickly and easily available for use, and were
constructively possessed for protection against
robbery in the context of an ongoing heroin
distribution operation"); United States v. Swafford,
385 F.3d 1026, 1029 (6th Cir. 2004) (affirming a §
924(c) conviction because the type of firearm was
"commonly associated with drug trafficking crimes"
and was "strategically located" near the defendant's
bed, so a rational jury could find that the firearm
was used for protection "in furtherance of the drug
trafficking" (citations omitted)); United States v.
Couch, 367 F.3d 557, 561 (6th Cir. 2004) ("[A] jury
can reasonably infer that firearms which are
strategically located so as 'to provide defense or
deterrence in furtherance of the drug trafficking' are
used in furtherance of a drug trafficking crime."
(citation omitted)). Put differently, the protection
from robbery the firearms provided may also have
facilitated Blough's drug trafficking, or his engaging
in it to a greater extent than he otherwise would
have.

11a
And the evidence the government introduced
at Blough's trial to prove this firearm-drug activity
"nexus" mirrors the type of evidence the government
introduced in cases we upheld. In particular, we
have held that the type of firearm (e.g., whether it is
for close-quarter combat or "is the type of weapon
often used in drug trafficking") and where that type
of firearm is located (i.e., whether it is strategically
located in close proximity to the drugs and/or easily
accessible) is the type of evidence that can be used to
show that the defendant's firearm was used to
protect against robbery. See, e.g., Maya, 966 F.3d at
502 ("[P]olice found [the defendant's] loaded
handgun in an easily accessible gap between the
mattresses of his bed close to the drug proceeds.");
Kelsor, 665 F.3d at 692-93 (one firearm located in the
bed and another in a closet where the drugs and
drug paraphernalia were stored); Swafford, 385 F.3d
at 1027, 1029 (firearm located in the bedroom and
easily accessible); Couch, 367 F.3d at 559, 561
(firearm located near the drugs and where the
defendant's "drug transactions were known to
occur"); see also United States v. Jernigan, 59 F.
App'x 647, 652 (6th Cir. 2003) (finding that "a 9mm
handgun," such as the 9mm Smith and Wesson M&P
pistol Blough possessed, "is the type of weapon often
used in drug trafficking"). These cases establish
clearly that this type of evidence is sufficient to
support a § 924(c) conviction and to survive a
sufficiency-of-the-evidence challenge on appeal. See
also Maya, 966 F.3d at 500-01 (noting that because
"[i]n most cases, a defendant will not confess to
possessing the firearm to facilitate a drug crime,"

12a
"the government typically must resort to
circumstantial evidence to establish this illicit
purpose," including evidence such as "the type of
weapon" possessed and whether it was "strategically
located").
In sum, Blough's own words, the installment
of a video-surveillance camera in his bedroom, the
type of firearms he possessed, and the firearms' easy
accessibility and proximity to the drugs and drug
paraphernalia collectively suggest that Blough was
in fact possessing the firearms for protection against
robbery during his drug-trafficking activities. We
cannot say that no rational trier of fact could have
found beyond a reasonable doubt that Blough's
possession of the firearms was "in furtherance of" his
drug-trafficking crimes.

III.
"We review challenges to jury instructions
under the abuse-of-discretion standard." United
States v. Williams, 612 F.3d 500, 506 (6th Cir. 2010).
"When jury instructions are claimed to be erroneous,
we review the instructions as a whole, in order to
determine whether they adequately informed the
jury of the relevant considerations and provided a
basis in law for aiding the jury in reaching its
decision." United States v. Frederick, 406 F.3d 754,
761 (6th Cir. 2005) (citation omitted).
Blough timely objected to the court's

13a
instruction that "[y]ou [the jury] may also consider
whether the defendant possessed a firearm for
protection against robbery in the context of an
ongoing narcotics distribution operation." The
district court overruled Blough's objection at the
time because the instruction "comes from . . . Sixth
Circuit case law."
On appeal, Blough argues that the district
court's instruction to the jury that it could consider
whether Blough possessed the firearms for
protection against robbery "was confusing and
prejudicial to him" and "put impermissible weight on
that factor to [his] detriment." However, a plain
reading of that jury instruction shows that nothing
in it puts more weight on that factor than on the
other six factors. Nor does Blough cite any case to
support the proposition that all of the factors
enumerated in a jury instruction must be given
equal weight. And based on the precedent we relied
on to reject Blough's sufficiency-of-the-evidence
claim, we agree with the district court that our
precedent establishes clearly that the jury, when
deciding whether to convict a defendant for
possession of a firearm in furtherance of a drugtrafficking crime, may consider whether the
defendant possessed the firearm(s) for protection
against robbery. See, e.g., Maya, 966 F.3d at 500 ("If,
for example, a drug dealer owns a gun 'to protect the
drugs, the proceeds of drug sales, or the dealer
himself,' that possession-for-protection purpose will
facilitate the crime." (citation omitted)); Kelsor, 665
F.3d at 693 (noting that because the firearms "were

14a
constructively possessed for protection against
robbery in the context of an ongoing heroin
distribution operation," "a reasonable juror could
conclude that there was a connection between
defendant's constructive possession of the firearms
seized . . . and the underlying drug offenses"); Couch,
367 F.3d at 561 ("[A] jury can reasonably infer that
firearms which are strategically located so as 'to
provide defense or deterrence in furtherance of the
drug trafficking' are used in furtherance of a drug
trafficking crime." (quoting Mackey, 265 F.3d at 46263)). Finally, Pattern Jury Instruction 12.03(2)(D)
states that the list of six factors "is not exhaustive."
Accordingly, we hold that the district court did not
abuse its discretion by instructing the jury that it
may consider whether Blough used the firearms to
protect against robbery in the context of a narcotics
operation.

IV.
For the foregoing reasons, we AFFIRM.
Footnotes omitted.
1 The government argues that the firearms' close
proximity to the drugs is what matters, but we have
noted that a "gun seems much more useful for
protection purposes if kept close to [] the potential
user, rather than close to the drugs." United States v.
Swafford, 385 F.3d 1026, 1029 (6th Cir. 2004). In this
case, Blough had firearms close to both him (i.e.,
under his mattress) and his drugs (i.e., in the same

15a
dresser as the cocaine). While the proximity of the
gun to the drugs may be important depending on the
circumstances, the most important question, as it
relates to whether the gun is used for protection, is
whether the gun is accessible.
2 Blough also argues that his case could be
distinguished from cases where we considered
whether the firearm was possessed to prevent a
robbery, but those arguments are better support for
his sufficiency-of-the-evidence claim.

